Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




ALABAMA WITHDREW EXCESSIVE
  FEDERAL MEDICAID FUNDS
      FOR FISCAL YEARS
     2010 THROUGH 2012


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General
                                                  for Audit Services

                                                    September 2014
                                                     A-06-13-00026
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

  For Federal fiscal years 2010 through 2012, Alabama obtained $18.9 million more in
  Federal funds than it expended.

WHY WE DID THIS REVIEW

To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. An external audit of the
Federal fiscal year (FY) 2011 financial statements for the Centers for Medicare & Medicaid
Services (CMS) determined that State Medicaid programs owed $1.3 billion to the Federal
Government. We conducted an audit of Alabama because it had one of the highest amounts
owed to the Federal Government. This is part of a series of reviews related to States’ Federal
Medicaid withdrawals.

The objective of this review was to determine whether Federal Medicaid funds that the Alabama
Medicaid Agency (State agency) obtained for FYs 2010 through 2012 were supported by net
expenditures.

BACKGROUND

Before each quarter, States estimate their Medicaid expenditures. CMS uses the estimates to
determine the initial grant awards, which are the Federal fund amounts that will be available to
States during the quarter. If a State underestimates the amount of funds it will need during a
quarter, it may request additional funds through a supplemental grant award.

The Payment Management System (PMS) is used to account for Medicaid financial activity.
Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of Medicaid expenditures. After the end of each quarter, States report expenditures and the
associated Federal share on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report). CMS calculates a finalized grant award amount for each
State by comparing the initial and supplemental grant awards for the quarter with both the
expenditures reported on the CMS-64 report and adjustments to those expenditures that were not
included on the CMS-64 report.

The State agency used a workbook that it created, called the cashbook, to record expenditures
and the manually calculated Federal shares. The cashbook also included PMS withdrawals. The
State agency used the cashbook’s ending balance to increase or decrease the Federal funds it
obtained.

WHAT WE FOUND

The State agency obtained Federal Medicaid funds for FYs 2010 through 2012 that were not
supported by net expenditures. The State agency obtained $10,981,935,774 in Federal Medicaid
funds, but CMS awarded the State agency only $10,963,019,593 for Medicaid expenditures.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                             i
Of the $18,916,181 difference, the State agency withdrew $14,824,156 that exceeded net
Medicaid expenditures for FYs 2010 through 2012. These inappropriate Medicaid withdrawals
occurred because the State agency miscalculated and overstated the Federal share of
expenditures in the cashbook, paid for overdrawn balances in previous years’ PMS accounts, and
withdrew funds for expenditures of another federally funded program.

The State agency inappropriately withdrew the remaining $4,092,025 from FY 2012 funds to pay
for FY 2013 Medicaid expenditures. We are setting these Medicaid funds aside because (1) we
did not review the State agency’s withdrawals from FY 2013 Medicaid PMS accounts and
(2) CMS had not finalized the Federal funds for FY 2013 at the time of our review.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $14,824,156 to the Federal Government;

    •   work with CMS to determine whether the $4,092,025 withdrawn for FY 2013 Medicaid
        expenditures should be refunded to the Federal Government and ensure that funds are
        withdrawn from the appropriate PMS account;

    •   establish procedures to compare withdrawn Federal funds with actual net Medicaid
        expenditures;

    •   review CMS’s calculations of final grant awards for accuracy;

    •   investigate reasons for account balances, particularly if CMS has not finalized the funds
        and the funds are to be used to pay for overdrawn balances in other PMS accounts; and

    •   separate Medicaid expenditures from other federally funded program expenditures when
        calculating Medicaid withdrawals.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency did not concur with our first
recommendation and described actions that it has taken to address the final five
recommendations.

Regarding our first recommendation, the State agency stated that it “does not concur with OIG’s
recommendation at this time” and indicated that it is in ongoing discussions with CMS regarding
the refund amount and will consider our findings as it continues to work toward a resolution with
CMS.

The State agency did not dispute that its Medicaid withdrawals exceeded its Medicaid
expenditures. Furthermore, State agency officials told us in meetings that the $14,824,156




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                              ii
associated with the first recommendation should be refunded. We maintain that the State agency
should refund that amount.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                      iii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................1

           Why We Did This Review ................................................................................................1

           Objective ...........................................................................................................................1

           Background .......................................................................................................................1
                 Medicaid Program .................................................................................................1
                 Medicaid Funding Process ....................................................................................1
                 The State Agency’s Cashbook ..............................................................................2

           How We Conducted This Review.....................................................................................2

FINDINGS ....................................................................................................................................3

           Federal Requirements .......................................................................................................3

           The State Agency Withdrew Funds That Exceeded Net Expenditures ............................3
                  The State Agency Miscalculated and Overstated the
                    Federal Share of Expenditures ...........................................................................3
                  The State Agency Paid for Overdrawn Balances in Previous Years’ Accounts ...4
                  The State Agency Withdrew Funds for Expenditures From
                    Another Federally Funded Program...................................................................4

          The State Agency Withdrew 2012 Funds for 2013 Medicaid Expenditures. ....................4

RECOMMENDATIONS ..............................................................................................................5

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................5

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY .................................................................7

           B: STATE AGENCY COMMENTS ...............................................................................9




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                                                                              iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. Before Federal fiscal year
(FY) 2010, States had grant award accounts that combined the Medicaid funds from every year.
Consequently, yearly balances were not distinguished. Beginning in FY 2010, the Centers for
Medicare & Medicaid Services (CMS) implemented annualized accounts for grant awards that
had beginning and ending balances to improve the transparency of Medicaid funding. As a part
of the CMS Financial Report FY 2011, an external audit of CMS’s financial statements
determined that State Medicaid programs owed $1.3 billion to the Federal Government. 1 We
conducted an audit of Alabama because it had one of the highest balances owed to the Federal
Government. This is part of a series of reviews related to States’ Federal Medicaid withdrawals.

OBJECTIVE

Our objective was to determine whether Federal Medicaid funds that the Alabama Medicaid
Agency (State agency) obtained for FYs 2010 through 2012 were supported by net expenditures.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. In Alabama, the State
agency administers the Medicaid program. Although the State agency has considerable
flexibility in designing and operating its Medicaid program, it must comply with applicable
Federal requirements.

Medicaid Funding Process

Before each quarter, States estimate their Medicaid expenditures and report the estimates to CMS
on the quarterly Medicaid Program Budget Report (CMS-37 report). CMS uses the estimates to
determine the initial grant awards, which are the Federal fund amounts that will be available to
States during the quarter. If a State underestimates the amount of funds it will need during a
quarter, it may request additional funds by submitting a revised CMS-37 report. The resulting
increase in Federal funds is known as a supplemental grant award.

CMS provides the grant award amounts to the Division of Payment Management (DPM), a
division within the Department of Health and Human Services, which operates as CMS’s fiscal
intermediary. DPM uses the Payment Management System (PMS) to account for Medicaid
financial activity, such as recording grant award amounts and processing the States’ withdrawals.
1
    CMS, CMS Financial Report Fiscal Year 2011, Financial Section, Audit Reports, page 121.


Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                          1
Beginning in FY 2010, CMS implemented annualized PMS accounts for the grant awards. As a
result, each State has PMS accounts for each FY rather than combining the funds for multiple
FYs.

Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of Medicaid expenditures. Within 30 days after the end of each quarter, States report to
CMS expenditures and the associated Federal share on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64 report). The amounts that States
report must represent actual expenditures.

CMS calculates a finalized grant award amount for each State by comparing the initial and
supplemental grant awards for the quarter with expenditures reported on the CMS-64 report.
CMS also includes in its calculation adjustments to expenditures that were not included on the
CMS-64 report, such as interest due to CMS and expenditures that CMS disallowed. If a State’s
initial and supplemental grant awards are less than its expenditures, CMS increases the State’s
grant award. Conversely, if a State’s initial and supplemental grant awards exceed its
expenditures, CMS decreases the State’s grant award by the difference.

The State Agency’s Cashbook

The State agency used a workbook that it created, called the cashbook, to record expenditures for
all Federal programs and the manually calculated Federal shares. The cashbook also included
PMS withdrawals and credits that decrease expenditures, such as drug rebate amounts paid by
drug manufacturers and third-party collections. The State agency used the cashbook’s ending
balance to increase or decrease the Federal Medicaid funds it obtained on a given withdrawal
date. If the ending balance indicated that previous withdrawals had exceeded net expenditures,
the State agency decreased the Medicaid withdrawal amount. Conversely, if the ending balance
indicated that net expenditures had exceeded previous withdrawals, the State agency increased
the Medicaid withdrawal amount.

HOW WE CONDUCTED THIS REVIEW

The State agency obtained $10,981,935,774 in Federal Medicaid funds for FYs 2010 through
2012 (i.e., October 1, 2009, through September 30, 2012). We compared the amounts that the
State agency withdrew with the final amounts that CMS awarded for expenditures and reviewed
the State agency’s cashbook.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                           2
                                             FINDINGS

The State agency obtained Federal Medicaid funds for FYs 2010 through 2012 that were not
supported by net expenditures. The State agency obtained $10,981,935,774 in Federal Medicaid
funds, but CMS awarded the State agency only $10,963,019,593 for Medicaid expenditures.

Of the $18,916,181 difference, the State agency withdrew $14,824,156 that exceeded net
Medicaid expenditures for FYs 2010 through 2012. These inappropriate Medicaid withdrawals
occurred because the State agency miscalculated and overstated the Federal share of
expenditures in the cashbook, paid for overdrawn balances in previous years’ PMS accounts, and
withdrew funds for expenditures of another federally funded program.

The State agency inappropriately withdrew the remaining $4,092,025 from FY 2012 funds to pay
for FY 2013 Medicaid expenditures. We are setting these Medicaid funds aside because (1) we
did not review the State agency’s withdrawals from FY 2013 Medicaid PMS accounts and
(2) CMS had not finalized the Federal funds for FY 2013 at the time of our review.

FEDERAL REQUIREMENTS

Sections 1903(a)(1) and (a)(7) of the Social Security Act make Federal financial participation
available only for the total amount expended as medical assistance and for the proper and
efficient administration of a CMS-approved State plan. Additionally, 42 CFR § 430.30(d)(3)
authorizes States to withdraw Federal funds as needed to pay the Federal share of Medicaid
disbursements.

THE STATE AGENCY WITHDREW FUNDS THAT
EXCEEDED NET EXPENDITURES

The State agency withdrew $14,824,156 that exceeded net Medicaid expenditures for FYs 2010
through 2012. These inappropriate withdrawals occurred because the State agency:

    •   miscalculated and overstated the Federal share of expenditures by $10,590,796,

    •   used $3,688,044 to pay for overdrawn balances in previous years’ PMS accounts, and

    •   withdrew $545,316 for expenditures from another federally funded program.

The State Agency Miscalculated and Overstated the Federal Share of Expenditures

The State agency withdrew $10,590,796 more than it needed to cover its Medicaid expenditures
because it miscalculated and overstated the Federal share of expenditures in the cashbook by that
amount. A State agency official told us that the miscalculations were the result of human errors.
The following table shows the Federal share of expenditure overstatements by year.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                           3
                       Table: Overstated Federal Share of Expenditures

                                    Fiscal          Federal Share
                                    Year            Overstatements
                                    2010              $3,878,544
                                    2011               5,258,553
                                    2012               1,453,699
                                    Total            $10,590,796

The State agency did not identify these overstatements because it had no reconciliation
procedures to compare amounts withdrawn with actual net expenditures.

The State Agency Paid for Overdrawn Balances in Previous Years’ Accounts

The State agency’s withdrawals from PMS accounts for FYs before 2010 exceeded Medicaid
expenditures for those years, so the accounts were overdrawn. To pay for the previous years’
overdrawn balances, the State agency inappropriately used $3,688,044 in funds from PMS
accounts for FYs 2010 through 2012.

The funds were withdrawn from account balances that should not have been available to the
State agency. CMS had duplicated some funding when it calculated the final Medicaid grant
awards, and the State agency did not review CMS’s calculations for accuracy. Also, the State
agency used funds from an FY 2012 PMS account before CMS’s finalization of that year’s
funds, and the State agency ultimately was not entitled to those funds.

The State Agency Withdrew Funds for Expenditures
From Another Federally Funded Program

The State agency inappropriately withdrew $545,316 in Medicaid funds that were not supported
by Medicaid expenditures. The funds were used to pay for another federally funded program’s
expenditures. These non-Medicaid expenditures were paid for with Medicaid funds because they
were commingled with Medicaid expenditures in the cashbook.

THE STATE AGENCY WITHDREW 2012 FUNDS FOR
2013 MEDICAID EXPENDITURES

The State agency inappropriately withdrew $4,092,025 from FY 2012 funds to pay for FY 2013
Medicaid expenditures:

    •   Other agencies within the State government furnish the State share of funds for services
        that they provide to Medicaid beneficiaries. The State agency held the payment for those
        services until the other agencies provided the State share. If a payment for services was
        held until after the end of an FY, the State agency reported the expenditures for those
        services in the fiscal year in which they were paid. However, the State agency
        inappropriately withdrew the Federal funds from the previous year’s PMS account. After



Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                          4
        FY 2012 ended, the State agency withdrew $3,201,631 for held expenditures that were
        paid for and reported in FY 2013.

    •   In addition, at the end of FY 2012, the State agency made a withdrawal from an FY 2012
        account to set up a reserve of funds for future expenditures. The State agency eventually
        used $890,394 to pay for FY 2013 Medicaid expenditures.

We are setting aside the $4,092,025 in Medicaid funds because (1) we did not review the State
agency’s withdrawals from FY 2013 Medicaid PMS accounts and (2) CMS had not finalized the
Federal funds for FY 2013 at the time of our review.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $14,824,156 to the Federal Government;

    •   work with CMS to determine whether the $4,092,025 withdrawn for FY 2013 Medicaid
        expenditures should be refunded to the Federal Government and ensure that funds are
        withdrawn from the appropriate PMS account;

    •   establish procedures to compare withdrawn Federal funds with actual net Medicaid
        expenditures;

    •   review CMS’s calculations of final grant awards for accuracy;

    •   investigate reasons for account balances, particularly if CMS has not finalized the funds
        and the funds are to be used to pay for overdrawn balances in other PMS accounts; and

    •   separate Medicaid expenditures from other federally funded program expenditures when
        calculating Medicaid withdrawals.

                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our first
recommendation and described actions that it has taken to address the final five
recommendations.

Regarding our first recommendation, the State agency stated that it “does not concur with OIG’s
recommendation at this time” and indicated that it is in ongoing discussions with CMS regarding
the refund amount and will consider our findings as it continues to work toward a resolution with
CMS.

The State agency did not dispute that its Medicaid withdrawals exceeded its Medicaid
expenditures. Furthermore, State agency officials told us in meetings that the $14,824,156


Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                              5
associated with the first recommendation should be refunded. We maintain that the State agency
should refund that amount.

The State agency’s comments are included in their entirety as Appendix B.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                       6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY
SCOPE
The State agency obtained $10,981,935,774 in Federal Medicaid funds for FYs 2010 through
2012 (i.e., October 1, 2009, through September 30, 2012). 2
We limited our review of supporting documentation to records supporting the State agency’s
withdrawing of Federal funds; we did not evaluate the accuracy of the expenditures that the State
agency reported on its CMS-64 report. Our objective did not require a review of the overall
internal control structure of the State agency. Therefore, we limited our internal control review
to the State agency’s procedures for withdrawing Federal Medicaid funds.
We conducted fieldwork at the State agency’s offices in Montgomery, Alabama, from
April 2013 to February 2014.

METHODOLOGY
To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to the State agency concerning the withdrawing of Federal funds;

    •   interviewed State agency officials to obtain an understanding of the State agency’s
        policies and procedures for withdrawing Federal funds;

    •   analyzed the State agency’s procedures for maintaining the cashbook and reviewed the
        cashbook;

    •   obtained and analyzed the PMS account detail, including grant award amounts and actual
        withdrawals that the State agency made;

    •   compared the grant award amounts in the PMS for each quarter with Medicaid grant
        award documents to ensure the accuracy of the PMS data;

    •   traced the amounts that CMS used to calculate the final grant award amounts for each
        quarter to the CMS-64 report;

    •   compared the State agency’s documentation supporting its Federal Medicaid fund
        withdrawals with the withdrawals in the PMS;

    •   reconciled Federal funds withdrawn with the State agency’s net expenditures and
        identified reasons for discrepancies; and

2
 The State agency obtained an additional $6,769,286 in Medicaid funds, but we removed them from our scope
because CMS deferred its approval of them.


Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                                      7
    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Alabama’s Federal Medicaid Withdrawals (A-06-13-00026)                                         8
                              APPENDIX B: STATE AGENCY COMMENTS 




                                      Alabama Medicaid Agency
                                                     501 Dexter Avenue 

                                                       P.O. Box 5624 

                                               Montgomery, Alabama 36103-5624 

                                                       www.medicaid.alabama.gov 

                                               e-mail: almedicaid@medicaid.alabama.gov 


           ROBERT BENTLEY 	                     T elecommunication for the Deaf: 1·800-253-0799      STEPHANIE MCGEE AZAR
              Govemot 	                               334-242-5000       1·800.362-1504                 Acting Comm1s.siooor




             June 19, 2014



             Ms. Patricia Wheeler
             Regiona l Inspector Genera l
             For Audit Services
             Office of Inspector General
             Office of Audit Services, Region VI
             1100 Commerce Street, Room 632
             Dallas, TX 75242

             RE: Draft Report Number A-06·13-00026

             Dear Ms. W heeler:

             The Alabama Medicaid Agency (Alabama Medicaid) welcomes the opportunity to comment on the 

             recomm endations contained in the draft report from the Office of Inspector Genera l (OIG) entitled 

             "Alabama Withdrew Excessive Federal Medicaid Funds for Fiscal Years 2010 Through 2012" (Draft 

             Report). 


             As requested in you r letter dated May 22, 2014, Alabama Medicaid is providing a statement of 

             concurrence or non-concurrence to each of the recommendations contained in the Draft Report. 


                 • 	 OIG Recommendation: Refund $14,824,156 to t he Federal Government.

                      Alabama Medicaid Comment: Alabama Medica id respectfully does not concur with OIG's
                      recom mendation at this t ime. The amount at issue is the subject of ongoing discussions with
                      CMS. As noted in the Draft Report, CMS duplicated certain expenditures when it calculated the
                      final Medicaid grant awards for the State. CMS reversed these duplicated expenditures in mid·
                      2013 and requested that Alabama Medicaid return $15,483,957. Alabama Medicaid will
                      consider OIG's findings as it continues to work toward a resolution with CMS on t his issue.

                 • 	 OIG Recommendation: Work with CMS t o determine whether t he $4,092,025 withdrawn from
                     FY 2013 Medicaid expenditures should be refunded to the Federa l Government and ensu re that
                     funds are withdrawn from the appropriate PMS account.

                      Alabama Medicaid Comment: Alabama Medica id is currently in discussions with CMS on this
                      issue. Alabama Medicaid was drawing funds in accordance with our understanding of CMS
                      policy and procedures. When Alabama Medicaid was notified by OIG that this was not the
                      correct way to draw the funds in t hese situatio ns, Alabama Medicaid im mediately cha nged its


                                                                       1




Alabama's Federal A1edicaid Withdrawals (A-06-13-00026)                                                                        9
            Ms. Patricia Wheeler
            June 19, 2014




                   procedures to account for the expenditures going forward. Alabama Medicaid will continue to
                   work with CMS to ensure that Alabama Medicaid draws these funds properly and in accordance
                   with CMS instructions.

                    OIG Recommendations: Establish procedures to compare withdrawn Federal funds with actua l
                    net Medicaid expenditures; Review CMS's calculations of final grant awa rds for accuracy;
                    Investigate reasons for account balances, particularly if CMS has not tina lized the funds and the
                    funds are to be used to pay for overdrawn balances in other PMS accounts; and separate
                    Medicaid expenditures from other federally funded program expenditures when calculating
                    Medicaid withdrawals.

                   Alabama Medicaid Comment: Alabama Medicaid has addressed each of these 

                   recommendations as follows: 



                           • 	 Alabama Medicaid implemented a new accounting system that replaced the
                               manual cash book. This system automatically separates tra nsactions by specific fund
                               and provides trial balance and operational reporting by fund. It also automatically
                               calculates the state and federal share of expenditures based on funding tables set
                               up within the system.
                           • 	 Alabama Medicaid has established procedures to reconcile , on a weekly basis,
                               amounts drawn from PMS accounts to amounts recorded in the accounting system.
                               This includes reconciling the outstanding grant balance in the PMS system.
                           • 	 Alabama Medicaid has established procedures to reconcile the agency's internal
                               cash statement of activities with the CMS 64 reported expenditures on a quarterly
                               basis.
                           • 	 Alabama Medicaid has established procedures to reconcile between amounts drawn
                               from PMS, expenditures reported on the CMS 64 and amounts recorded to cash in
                               the agency's accounting system.
                           • 	 Alabama Medicaid reviews all grants issued by CMS for accuracy and analyzes their
                               impact on current and prior year grant balances. Alabama Medicaid estimates
                               fu ture CMS grant finalizations and investigates if the estimated amount of t he
                               finalization is materially diffe rent from the actual finalization issued by CMS.
                           • 	 Alabama Medicaid has established enhanced supervisory rev iew procedures over
                               draws and reported expenditures, and has also established new procedures for the
                               methodology by which Federal funds are drawn.
                           • 	 Alabama Medicaid has made staff changes and organizational changes to improve
                               review and coordination of draws and expenditure reportin g.




                                                                2




Alabama's Federal M edicaid Withdrawals (A -06-13-00026)                                                                 10
             Ms. Patricia Wheeler
            June 19, 2014




            Thank you for the opportunity to discuss the recommendations contained in OIG's Draft Report. If you
            have any questions regarding the above comments, please contact Mr. Flake Oakley at
             Flake.Oakley@medicaid.aIabarna.gov.




            Sincerely,

            /Stephanie McGee Azar/

            Stephanie McGee Azar
            Acting Commissioner




                                                              3




Alabama's Federal A1edicaid Withdrawals (A-06-13-00026)                                                            11
